                                                      u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                 OFFICE OF THE INSPECTOR GENERAL
                                                                                  OFFICE OF AUDITS




Final Audit Report
Subject:


              AUDIT REPORT OF THE 2008 AND 2009 

                      TACONIC VALLEY 

               COMBINED FEDERAL CAMPAIGNS 

                  WHITE PLAINS, NEW YORK 





                                           Report No. 3A-CF-OO-ll-036


                                            Date:        April 26,            2012




                                                            --CAUTION-­
This audit report has been distributed to Federal otlicials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected b)' Federal law (18li.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public Oil the OIG web page. caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed cop)'.
                                                              UNITED STATES 

                                          OFFICE OF PERSONNEL MANAGEMENT 

                                                      WASHINGTON. DC             20415-1100 



       OFFICE Or~
THE INSPECTOR GENERAL




                                                            AUDIT REPORT 




                                           AUDIT OF THE 2008 AND 2009 

                                               TACONIC VALLEY 

                                         COMBINED FEDERAL CAMPAIGNS 

                                           WHITE PLAINS, NEW YORK 



                 Report No. 3A-CF-OO-ll-036                                               Date: 04/26/12




                                                                                            Michael R. Esser
                                                                                            Assistant Inspector General
                                                                                              for Audits




                                                                   --CAUTION-­
       This audit report has been distributed to Federal officials who are responsible for the administration ofthe audited program. This audit
       report may contain proprietary data which is protected by Federal law (18 U.S.c. 1905). Therefore, while this audit report is available
       under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
       releaSing the report to the general pUblic as it may contain proprietary information that was redacted from the publicly distributed copy.



                                                                                                                                                     OIG-O'
                                                                                                                                                    May 1999
                                                      u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                 OFFICE OF THE INSPECTOR GENERAL
                                                                                  OFFICE OF AUDITS




Final Audit Report
Subject:


              AUDIT REPORT OF THE 2008 AND 2009 

                      TACONIC VALLEY 

               COMBINED FEDERAL CAMPAIGNS 

                  WHITE PLAINS, NEW YORK 





                                           Report No. 3A-CF-OO-ll-036


                                            Date:        April 26,            2012




                                                            --CAUTION-­
This audit report has been distributed to Federal otlicials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected b)' Federal law (18li.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public Oil the OIG web page. caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed cop)'.
                          BUDGET AND CAMPAIGN EXPENSES

•   Unallowable Campaign Expenses                                                    Procedural

    The PCFO charged the 2009 campaign $26,000 in salary-related expenses which were based
    on estimated hours worked instead of actual hours.

•   Inappropriate Expense Payment                                                    Procedural

    The PCFO inappropriately paid for IPA audit fees directly out of the CFC bank account
    rather than absorbing the costs and receiving a reimbursement as required by the regulations.
    Additionally, the audit fees in question were related to an earlier campaign (2008) and were
    paid from 2009 receipts.

•   Inappropriate PCFO Solicitation                                                  Procedural

    The solicitation for the PCFO of the 2009 campaign was made on the UWWP website and
    was not advertised by any other public notifications. Additionally, the applications were
    directed to be sent to the PCFO and not to the LFCC.

•   Campaign Expenses Reimbursed Without Approval                                    Procedural

    The PCFO did not submit, nor did the LFCC approve, a request for reimbursement of 2009
    campaign expenses to the PCFO.

                     CAMPAIGN RECEIPTS AND DISBURSEMENTS

•   Undistributed Campaign Funds                                                          $3,521

    The PCFO did not properly account for all incoming CFC receipts and expenses. As a result,
    the PCFO did not distribute $3,521 in campaign receipts to members of the 2009 campaign.

•   Pledge Card Errors                                                               Procedural

    The PCFO incorrectly entered one charity code and did not identify one pledge card where
    the donor did not sign the payroll deduction authorization.

•   LFCC Approval of One-Time Disbursements not Obtained                             Procedural

    The PCFO made one-time disbursements to agencies without requesting approval from the
    LFCC.




                                                ii
                                         ELIGIBILITY

•   Application Review Deficiencies                                                    Procedural

    We identified two areas of deficiency in our review of the Local Agency, Federation
    Member, and Local Federation applications.

•   Eligibility Notifications Sent After Due Date                                      Procedural

    The LFCC did not issue local agency and federation eligibility notifications by the date
    required by the Federal regulations.

                                  PCFO AS A FEDERATION

Our review of the PCFO’s activities as a federation showed that it complied with the applicable
provisions of 5 CFR 950.

                                     FRAUD AND ABUSE

Our review of the PCFO’s policies and procedures for fraud and abuse indicated that they were
sufficient to detect and deter potential fraud and abuse activities.

                            DISPOSITION OF THE CAMPAIGN

As a result of the numerous findings, the nature of the issues identified in this report, the high
expense percentage of the campaign, and the PCFO’s recognition of its lack of understanding of
the CFC regulations, it is our opinion that the OCFC should seek to merge the Taconic Valley
CFC with another geographically adjacent campaign, administered and conducted by a new
PCFO and LFCC that are more equipped to handle the responsibilities of the CFC.




                                                iii
                                                   CONTENTS
                                                                                                                          PAGE

       EXECUTIVE SUMMARY ............................................................................................. i

  I.   INTRODUCTION AND BACKGROUND .................................................................... 1

 II.   OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................ 3

III.   AUDIT FINDINGS AND RECOMMENDATIONS ...................................................... 7

       A.     AUDIT GUIDE REVIEW ..................................................................................... 7

              1. Agreed-Upon Procedures not in Compliance with the Audit Guide ............... 7

       B.     BUDGET AND CAMPAIGN EXPENSES .......................................................... 8

              1.   Unallowable Campaign Expenses.................................................................... 8
              2.   Inappropriate Expense Payment ...................................................................... 9
              3.   Inappropriate PCFO Solicitation..................................................................... 11
              4.   Campaign Expenses Reimbursed Without Approval ..................................... 12

       C. CAMPAIGN RECEIPTS AND DISBURSEMENTS ............................................. 13

              1. Undistributed Campaign Funds ...................................................................... 13
              2. Pledge Card Errors .......................................................................................... 14
              3. LFCC Approval of One-Time Disbursements not Obtained .......................... 15

       D.     ELIGIBILITY ....................................................................................................... 16

              1. Application Review Deficiencies ................................................................... 16
              2. Eligibility Notifications Sent After Due Date................................................. 17

       E.     PCFO AS A FEDERATION................................................................................. 18

       F.     FRAUD AND ABUSE ......................................................................................... 18

       G.     DISPOSITION OF THE CAMPAIGN ................................................................. 18

IV.    MAJOR CONTRIBUTORS TO THIS REPORT .......................................................... 21

       APPENDIX A (The PCFO’s response, dated March 16, 2012, to the draft report.)

       APPENDIX B (The LFCC’s response, dated March 19, 2012, to the draft report.)
                    I. INTRODUCTION AND BACKGROUND
INTRODUCTION

This report details the findings and conclusions resulting from our audit of the Taconic Valley
Combined Federal Campaigns (CFC) for 2008 and 2009. The audit was performed by the Office
of Personnel Management’s (OPM) Office of the Inspector General (OIG), as authorized by the
Inspector General Act of 1978, as amended.

BACKGROUND

The CFC is the sole authorized fund-raising drive conducted in Federal installations throughout
the world. In 2009, it consisted of 226 separate local campaign organizations located throughout
the United States, including Puerto Rico and the Virgin Islands, as well as overseas locations.
The Office of the Combined Federal Campaign (OCFC) at OPM has the responsibility for
management of the CFC. This includes publishing regulations, memoranda, and other forms of
guidance to Federal offices and private organizations to ensure that all campaign objectives are
achieved.

Each CFC is conducted by a Local Federal Coordinating Committee (LFCC) and administered
by a Principal Combined Fund Organization (PCFO). The LFCC is responsible for organizing
the local CFC; determining the eligibility of local voluntary organizations; selecting and
supervising the activities of the PCFO; encouraging Federal agencies to appoint Loaned
Executives to assist in the campaign; ensuring that employees are not coerced in any way in
participating in the campaign; and acting upon any problems relating to a voluntary agency’s
noncompliance with the policies and procedures of the CFC. Loaned Executives are Federal
employees who are temporarily assigned to work directly on the CFC.

The primary goal of the PCFO is to administer an effective and efficient campaign in a fair and
even-handed manner aimed at collecting the greatest amount of charitable contributions possible.
Its responsibilities include training loaned executives, coordinators, employee keyworkers and
volunteers; maintaining a detailed schedule of its actual CFC administrative expenses; preparing
pledge cards and brochures; distributing campaign receipts; submitting to an audit of its CFC
operations by an Independent Certified Public Accountant (IPA) in accordance with generally
accepted auditing standards; cooperating fully with the OIG audit staff during audits and
evaluations; responding in a timely and appropriate manner to all inquiries from participating
organizations, the LFCC, and the Director of OPM; and, consulting with federated groups on the
operation of the local campaign.

Executive Orders No. 12353 and No. 12404 established a system for administering an annual
charitable solicitation drive among Federal civilian and military employees. Title 5 Code of
Federal Regulations Part 950 (5 CFR 950), the regulations governing CFC operations, sets forth
ground rules under which charitable organizations receive Federal employee donations.
Compliance with these regulations is the responsibility of the PCFO and the LFCC. The PCFO
is also responsible for establishing and maintaining a system of internal controls.




                                               1
This represents our first audit of the Taconic Valley CFC. The initial results of our audit were
discussed with the PCFO and LFCC officials during separate exit conferences held on
June 10, 2011. A draft report was provided to the PCFO and LFCC for review and comment on
February 17, 2012. The PCFO and LFCC’s responses to the draft report were considered in
preparation of this final report and are included as Appendices.




                                                2
               II. OBJECTIVES, SCOPE, AND METHODOLOGY
OBJECTIVES

The primary purpose of our audit was to determine if the Taconic Valley CFC was in compliance
with 5 CFR 950, including the activities of both the PCFO and the LFCC.

Our audit objective for the 2008 campaign was:

   Audit Guide Review
   • To determine if the Independent Public Accountant (IPA) completed the Agreed-Upon
      Procedures (AUP) as outlined in the CFC Audit Guide.

Additionally, our specific audit objectives for the 2009 campaign were as follows:

   Budget and Campaign Expenses
   • To determine if the PCFO solicitation, application, campaign plan, and budget were in
      accordance with the regulations.
   • To determine if the expenses charged to the campaign were actual, reasonable, allocated
      properly, approved by the LFCC, and did not exceed 110 percent of the approved budget.

   Campaign Receipts and Disbursements
   • To determine if the pledge card format was correct and if the pledge card report agrees
     with the actual pledge cards.
   • To determine if incoming pledge monies were allocated to the proper campaign year and
     that the net funds (less expenses) were properly distributed to member agencies and
     federations.
   • To determine if the member agencies and federations were properly notified of the
     amounts pledged to them and that donor personal information was only released for those
     who requested the release of information.

   Eligibility
   • To determine if the charity list (CFC brochure) was properly formatted and contained the
       required information; if the charitable organization application process was open for the
       required 30-day period; if the applications were appropriately reviewed, evaluated, and
       approved; if the applicants were notified of the eligibility decisions in a timely manner;
       and if the appeals process for denied applications was followed.

   PCFO as a Federation
   • To determine if the amounts received by the PCFO as a federation reconciled to those
     disbursed by the CFC; if the PCFO properly distributed funds to its federation members;
     if expenses charged by the PCFO (to its federation members) were documented properly;
     and if the disbursements made to the federation members were accurate.




                                                 3
   Fraud and Abuse
   • To determine what policies and procedures the PCFO has in place related to detecting
      and preventing fraud and abuse, and if they are adequate.

SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on the audit objectives.

The audit covered campaign years 2008 and 2009. The United Way of Westchester and Putnam
(UWWP), located in White Plains, New York, served as the PCFO during both campaigns. The
audit fieldwork was conducted at the offices of the PCFO from June 6 through 10, 2011.
Additional audit work was completed at our Washington, D.C. office.

The Taconic Valley CFC received campaign pledges, collected campaign receipts, and incurred
campaign administrative expenses for the 2008 and 2009 campaigns as shown below.

    Campaign              Total                      Total               Administrative
      Year               Pledges                    Receipts               Expenses
      2008               $200,054                  $199,043                  $43,158

      2009               $134,443                  $126,816                  $38,543

In conducting the audit we relied to varying degrees on computer-generated data. Our review of
a sample of campaign expenses and supporting data, a sample of pledge card entries, and the
distribution of campaign contributions and related bank statements, verified that the computer-
generated data used in conducting the audit was reliable. Nothing came to our attention during
our review of the data to cause us to doubt its reliability.

We considered the campaign’s internal control structure in planning the audit procedures. We
gained an understanding of the management procedures and controls to the extent necessary to
achieve our audit objectives. We relied primarily on substantive testing rather than tests of
internal controls. The audit included tests of accounting records and such other auditing
procedures as we considered necessary to determine compliance with 5 CFR 950 and CFC
Memoranda.

To accomplish our objective concerning the 2008 campaign (Audit Guide Review), we reviewed
the CFC Audit Guide to verify that the IPA completed and documented the AUP steps.




                                               4
In regards to our objectives concerning the 2009 campaign’s budget and campaign expenses, we
accomplished the following:

   •   Reviewed the PCFO’s application to verify that it was complete.

   •   Reviewed a copy of the public notice to prospective PCFOs and the LFCC meeting
       minutes to verify that the PCFO was selected in a timely manner.

   •   Traced and reconciled amounts on the PCFO’s Schedule of Actual Expenses to the
       PCFO’s general ledger.

   •   Reviewed the PCFO’s budgeted expenses, the LFCC’s approval of the budget, and
       matched a sample of actual expenses to supporting documentation. We judgmentally
       selected all expenses for review, totaling $38,543.

   •   Reviewed the LFCC meeting minutes and verified that the LFCC authorized the PCFO’s
       reimbursement of campaign expenses.

   •   Compared the budgeted expenses to actual expenses and determined if actual expenses
       exceeded 110 percent of the approved budget.

To determine if the 2009 campaign’s receipts and disbursements were handled in accordance
with CFC regulations, we reviewed the following:

   •   A judgmental sample of 25 contributors with pledge amounts totaling $15,165 (out of a
       universe of 895 contributors with total pledges of $134,433) from the PCFO’s 2009
       campaign pledge card detail schedule and compared the pledge information from the
       schedule to the actual pledge cards. Specifically, we judgmentally selected the top 15
       contributors for review by total amount pledged. Additionally, we judgmentally selected
       the next five contributors (by total amount pledged) whose donation was marked
       “undesignated” and the first five contributors (by total amount pledged) who agreed to
       release personal information.

   •   Cancelled distribution checks to verify that the appropriate amount was distributed in a
       timely manner.

   •   One-time disbursements to verify that the PCFO properly calculated pledge loss and
       disbursed the funds in accordance with the ceiling amount established by the LFCC.

   •   The PCFO’s most recent listing of outstanding checks to verify that the PCFO was
       following its policy for such checks.

   •   The pledge notification letters to verify that the PCFO notified the CFC agencies of the
       designated and undesignated amounts due them by the date required in the regulations.




                                                5
   •   The donor list letters sent by the PCFO to organizations to verify the letters properly
       notify the organization of the donors who wish to be recognized.

   •   CFC receipts and distributions from the PCFO’s campaign bank statements, campaign
       receipts and agency disbursements, and campaign expense support to verify whether the
       PCFO accurately recorded and disbursed all 2009 campaign receipts and disbursements.

   •   All bank statements used by the PCFO to verify that it properly accounted for and
       distributed funds.

   •   The PCFO’s cutoff procedures and bank statements to verify that funds were allocated to
       the appropriate campaign year.

To determine if the LFCC and PCFO were in compliance with CFC regulations in regards to
eligibility for the 2009 campaign, we reviewed the following:

   •   The public notice to prospective charitable organizations to determine if the LFCC
       accepted applications from organizations for at least 30 days.

   •   The Campaign charity list to determine if they contained all required information.

   •   The process and procedures for the application evaluation process.

   •   Sample eligibility letters to verify they were properly sent by the LFCC.

   •   The LFCC’s processes and procedures for responding to appeals from organizations.

To determine if the PCFO was in compliance with the CFC regulations as a federation (UWWP)
for the 2009 campaign, we reviewed the following:

   •   Data reported on the CFC Receipts Schedule with supporting documentation to verify
       whether receipts were properly recorded.

   •   The CFC Distribution Schedule to ensure that the UWWP did not disburse any funds to
       member agencies not participating in the CFC.

   •   The UWWP’s agreements with its member agencies to determine if the fees were
       reasonable and supported.

Finally, to determine if the policies and procedures related to the detection and prevention of
fraud and abuse were adequate we reviewed the PCFO’s responses to our fraud and abuse
questionnaire.

The samples mentioned above, that were selected and reviewed in performing the audit, were not
statistically based. Consequently, the results could not be projected to the universe since it is
unlikely that the results are representative of the universe taken as a whole.


                                                 6
              III. AUDIT FINDINGS AND RECOMMENDATIONS
The current LFCC, who was not the LFCC during the scope of the audit, provided the LFCC
response to the draft report. Since it was not involved with the Taconic Valley CFC during the
2009 campaign and was unaware of the circumstances related to the errors identified, the LFCC
stated that it could only concur with all of the findings (except for the Disposition of Campaign)
and will work to correct the audit issues. As such, we are not including a LFCC response to each
of the audit findings below.

A.   AUDIT GUIDE REVIEW

     1. Agreed-Upon Procedures not in Compliance with the Audit Guide                  Procedural

         The IPA utilized by the PCFO and the LFCC to complete the AUP audit of the 2008
         campaign did not complete its review in accordance with the requirements of the Audit
         Guide.

         The Audit Guide contains specific procedures to be followed during the examination by
         the IPA with the primary objective of determining LFCC and PCFO compliance with
         5 CFR Part 950 and OPM’s guidance.

         We reviewed the IPA’s work papers and report in detail to determine if the IPA
         followed the AUPs as stated in the Audit Guide and to determine if the IPA failed to
         identify and/or report any findings. Our review identified four areas where the IPA did
         not comply with the requirements of the Audit Guide. Specifically, we identified the
         following issues:

         •   LFCC Processes Step 1 required the IPA to report as a finding where the PCFO
             did not include a signed statement in its application certifying its understanding of
             the Federal regulations [5 CFR 950.105(c)(2)]. In its working papers the IPA
             indicated that neither the PCFO nor the LFCC could locate the application.
             Consequently, without the application, the IPA could not have completed this step.
             However, the IPA did not report this as a finding in its report.

         •   Receipt and Disbursement of Funds Step 3 (b) required the IPA to determine if
             the PCFO began disbursements by April 1 (2009) and continued the disbursements
             at least quarterly thereafter. Based on our review of the documentation included in
             the IPA’s AUP report for the 2008 campaign, it is clear that the PCFO did not make
             quarterly disbursements to agencies and federations. The first payment made to
             agencies and federations not receiving one-time disbursements was made in
             October 2009 and a second payment was made in March 2010 (five months later).
             The IPA did not report this as a finding in its report.

         •   Receipt and Disbursement of Funds Step 7 (b) required the IPA to review
             meeting minutes to verify the LFCC’s approval of one-time disbursements and
             related ceiling limits. The IPA’s working papers indicated that the program used by


                                                7
            the PCFO (CFC Assistant) had a $250 ceiling limit and that no LFCC approval was
            necessary. As a result, the IPA did not report this as a finding it is report.

        •   Receipt and Disbursement of Funds Step 7 (d and e) required the IPA to
            calculate the pledge loss percentage and determine that the correct pledge loss
            percentage was used in the calculation of one-time disbursement amounts. The IPA
            did not complete the steps relating to pledge loss, stating that they were not
            applicable. However, the “Schedule of Disbursements” included in the IPA’s AUP
            report clearly shows that one-time disbursements were made to all agencies and
            federations with gross pledges below $250.

        As a result of not completing the reviews required by the AUPs, the IPA is not
        providing OPM’s OCFC and the LFCC with the assurance that the PCFO is operating
        the CFC appropriately. Additionally, based on the errors made in its review, it is our
        opinion that the IPA did not fully understand the CFC and its related regulations when
        completing the AUPs.

        PCFO Response:

        The PCFO agrees with the finding.

        Recommendation 1

        We recommend that the OCFC ensures that the LFCC meets with the IPA prior to and
        during the AUP engagement to discuss the Audit Guide steps and results, and
        encourages the IPA to ask questions of the LFCC or the OCFC if it is unsure of how to
        complete any of the required procedures.

B.   BUDGET AND CAMPAIGN EXPENSES

     1. Unallowable Campaign Expenses                                               Procedural

        The PCFO charged the 2009 campaign $26,000 in salary-related expenses which were
        based on estimated hours worked instead of actual hours.

        5 CFR 950.106(a) states “The PCFO shall recover from the gross receipts of the
        campaign its expenses, approved by the LFCC, reflecting the actual costs of
        administering the local campaign.” (Emphasis added)

        We reviewed all 2009 campaign expenses, totaling $38,543, to determine if the
        amounts charged to the campaign were CFC-related expenses, were actual costs with
        supporting documentation, and were charged to the correct campaign. Our review
        identified salary-related charges, totaling $26,000, which we could not determine to be
        based on actual expenses.




                                              8
   During our review we requested that the PCFO provide documentation to support the
   $26,000 charged to the CFC for salaries. We were provided a spreadsheet outlining the
   allocation of salaries to the 2009 campaign. In it the PCFO’s total allocated salaries
   and benefits totaled $33,794 and the PCFO chose to charge $26,000 (the amount of
   salaries in the approved campaign budget). However, no support was provided for the
   hours or rates charged in each line item. Upon discussion with the PCFO it was
   determined that it did not track the actual hours worked on the CFC. Therefore, we
   could not determine if the amounts related to the CFC were accurate, even though the
   PCFO charged a lesser amount. The PCFO has subsequently provided more detailed
   documentation on the employee’s salaries. However, the hours worked are still based
   on estimated hours worked. We do acknowledge that salary expenses were incurred
   and we will not question the amount. However, the current methodology used for
   charging salaries remains unsubstantiated.

   As a result of the PCFO not tracking actual hours worked and not maintaining accurate
   supporting documentation for salary expenses incurred during the administration of the
   2009 campaign, we could not verify if the $26,000 charged to the campaign was an
   accurate expense of administering the campaign.

   PCFO Response:

   While the PCFO states they do not concur with our finding, they acknowledge that they
   did not provide supporting documentation of actual hours worked. The PCFO indicates
   that a schedule of hours worked for each employee will be maintained in the coming
   year.

   Recommendation 2

   We recommend that the OCFC and the LFCC direct the PCFO to institute procedures
   to ensure that all costs allocated to the CFC are supported both by verifiable and
   quantifiable methodologies and documentation.

2. Inappropriate Expense Payment                                              Procedural

   The PCFO inappropriately paid for audit fees, totaling $2,750, directly out of the CFC
   bank account rather than absorbing the costs and receiving a reimbursement as is
   required by the Federal regulations. Additionally, the audit fees in question were
   related to an earlier campaign (2008) and were paid from 2009 receipts.

   5 CFR 950.106(b) states that the PCFO may absorb the costs associated with
   conducting the campaign from its own funds and be reimbursed, or that it may obtain a
   commercial loan to pay for the costs associated with conducting the campaign.

   Additionally, 5 CFR 950.106(a) states “The PCFO shall recover from the gross receipts
   of the campaign its expenses, approved by the LFCC, reflecting the actual costs of
   administering the local campaign.”



                                         9
Furthermore, CFC Memorandum 2008-09 provides instructions for the accounting of
IPA audit expenses and directs that the estimated audit expense should be accrued and
withheld from the last distribution of the campaign.

During our expense review we noted that the PCFO’s expense spreadsheet indicated
that the “PCFO was not reimbursed” for audit fees charged to the 2009 campaign and
that the fees were paid directly to the IPA. As a result, we reviewed the CFC bank
statements and expense invoices to determine how much the IPA was paid and the
method of payment. We found that the IPA was paid $2,750 via a check from the CFC
general account and not from the PCFO’s account. Additionally, we determined that
the $2,750 was related to the IPA’s audit of the 2008 campaign.

As a result of the PCFO inappropriately paying an expense directly from the CFC
account, the PCFO is not allowing the LFCC its opportunity to review and approve
CFC expenses prior to reimbursement. Additionally, by reimbursing expenses related
to a prior campaign from 2009 campaign funds, the PCFO reduced the funds available
to be disbursed to the agencies and federations of the 2009 campaign.

As the funds in question should have been paid from the 2008 campaign, which is
closed, we are not recommending reimbursement of these funds to the 2009 campaign.

PCFO Response:

The PCFO concurs that it paid the IPA fee directly from the CFC bank account and
going forward the IPA fee will be paid by the PCFO and reimbursed at the completion
of the campaign.

The PCFO does not concur that it paid the IPA fees from the wrong campaign year’s
funds. The PCFO states that it maintains one bank account for all campaign receipts
and that the audit fee for the 2008 audit was withheld from the final distribution for
2008, using campaign software. The PCFO contends that although the payment was
made the following year, after the completion of the audit, the funds from 2008 had
been held aside in the bank account and therefore payment was made from the
appropriate receipts.

OIG Comments:

We disagree with the PCFO’s response. The PCFO stated that it withheld funds from
the 2008 campaign to pay for the 2008 IPA audit, and therefore did not pay from the
wrong campaign year’s receipts. However, as part of the 2008 IPA audit, a review was
done of the 2008 campaign receipts and disbursements. The schedule of 2008
campaign receipts and disbursements shows an ending balance of zero, indicating that
all funds were disbursed for the 2008 campaign and that no funds were withheld. As a
result, the evidence indicates that the PCFO used 2009 campaign funds to pay for the
2008 campaign audit expense.




                                      10
   Recommendation 3

   We recommend that the OCFC and LFCC ensure that the PCFO understands that it
   may not pay campaign expenses directly from CFC funds and that it sets up procedures
   to ensure that this does not occur for future campaigns.

   Recommendation 4

   We recommend that the OCFC and LFCC ensure that the PCFO institutes procedures to
   accrue the costs related to the required IPA audits of the campaign so that funds are
   accrued and withheld from the campaign’s final distribution until the audit is completed
   and a bill submitted as outlined in CFC Memorandum 2008-09.

3. Inappropriate PCFO Solicitation                                             Procedural

   The solicitation for PCFO of the 2009 campaign was made on the UWWP’s website
   and was not advertised by any other public notifications. Additionally, the applications
   were directed to be sent to the PCFO and not to the LFCC.

   5 CFR 950.104(c) states “The LFCC shall solicit applications via outreach activities
   including: Public notice in newspapers, postings on Web sites, advertising in trade
   journals, dissemination among participating CFC organizations and federations, and/or
   outreach through local or state nonprofit associations and training centers, among
   others.”

   We reviewed the advertisement for solicitation of PCFO for the 2009 campaign to
   determine if the solicitation was open for at least 21 calendar days and if the LFCC
   selected the PCFO by the date required by OPM. Our review found that the PCFO
   solicitation was only done on the UWWP’s website and that no other method of
   advertising was done. It was also noted that the solicitation on the UWWP’s website
   directed that the applications should be sent to the PCFO and not to the LFCC.

   By not posting an advertisement in a more public form of media (newspaper, trade
   journal, etc.) the LFCC is limiting the possible applicants for PCFO. Additionally,
   having the PCFO receiving applications from potential competitors creates a conflict of
   interest and the LFCC may not be able to ensure that they have received all
   applications.

   PCFO Response:

   The PCFO does not agree with this finding and states “It was the understanding of the
   PCFO that we were compliant with the regulations by soliciting for PCFO for the 2009
   campaign by listing on the United Way of Westchester and Putnam website. In years
   past an ad was placed in a local newspaper, but four or five years ago the PCFO was
   told by OPM that website placement was sufficient and we have followed that ruling.”
   The PCFO stated that it will place ads in local newspapers going forward.



                                         11
   OIG Comments:

   We disagree with the PCFO’s response. According to 5 CFR 950.104(c) it is the
   LFCC’s responsibility to solicit applications via newspapers, posting on web sites,
   advertising in trade journals, dissemination among participating CFC organizations and
   federations, and/or outreach through local or state nonprofit associations. However,
   according to the OCFC’s Guidelines for the Use of E-Technology in the CFC, requests
   for PCFO proposals published on the internet must be on a CFC website that is separate
   and distinct from the website of the PCFO. Therefore, the solicitation for the PCFO on
   its own website was inappropriate.

   Recommendation 5

   We recommend that the OCFC direct the LFCC to solicit for the PCFO by means of
   other public advertising such as that described in 5 CFR 950.104(c), to cease soliciting
   for PCFO proposals on the PCFO’s website, and that the applications be directed to the
   LFCC and not the PCFO.

4. Campaign Expenses Reimbursed Without Approval                                Procedural

   The PCFO did not submit, nor did the LFCC approve, a request for the reimbursement
   of 2009 campaign expenses to the PCFO.

   5 CFR 950.104(b)(17) states that it is the responsibility of the LFCC to authorize to the
   PCFO reimbursement of only those campaign expenses that are legitimate CFC costs
   and are adequately documented. (Emphasis added)

   Additionally, 5 CFR 950.106(a) states the PCFO shall recover campaign expenses,
   approved by the LFCC, which reflect the actual costs of administering the campaign.
   (Emphasis added)

   Our review of LFCC meeting minutes did not identify where the LFCC discussed,
   reviewed, or approved the reimbursement of 2009 campaign expenses to the PCFO.
   The PCFO indicated that it understood that it may reimburse itself within the
   parameters of the approved budget providing that agencies have been paid according to
   OPM regulations and when funds are available to do so. Therefore, the PCFO did not
   submit the expenses to the LFCC for review and approval.

   The PCFO’s misunderstanding of the Federal regulations regarding reimbursement of
   campaign expenses led it to not submit the expenses for the 2009 campaign to the
   LFCC for review and approval, which resulted in the PCFO bypassing the authority and
   responsibilities of the LFCC. Additionally, as a result of the LFCC’s lack of
   understanding of its responsibilities and not requesting to review and approve the
   campaign expenses, the LFCC ran the risk of non-CFC related expenses being charged
   to the campaign.




                                         12
      PCFO Response:

      The PCFO concurs with our finding and states that going forward it will obtain
      approval from the LFCC before reimbursement.

      Recommendation 6

      We recommend that the OCFC ensures that the PCFO has instituted polices to request
      the LFCC to review and approve its campaign expenses prior to making reimbursement
      of those expenses.

      Recommendation 7

      We recommend that the OCFC ensures that the LFCC understands its responsibilities
      under the Federal regulations, especially in regards to the PCFO’s reimbursement of
      campaign expenses [5 CFR 950.104(b)(17)].

C. CAMPAIGN RECEIPTS AND DISBURSEMENTS

   1. Undistributed Campaign Funds                                                       $3,521

      The PCFO did not properly account for all incoming CFC receipts and expenses. As a
      result, the PCFO did not distribute $3,521 in campaign receipts to members of the 2009
      campaign.

      5 CFR 950.901(i)(2) states that at the close of each disbursement period, the PCFO’s
      CFC account shall have a zero balance.

      We reviewed the PCFO’s CFC bank statements and distributions to determine if it
      allocated incoming receipts to the correct campaign and if it disbursed all funds
      received during the campaign. Based on our review, the PCFO incorrectly accounted
      for items not reimbursed to it directly (banking fees offset in the bank accounts and the
      IPA audit fee incorrectly paid directly out of the CFC account). Additionally, the
      PCFO did not account for a January 2010 deposit as belonging to the 2009 campaign.
      The net result of these errors was an outstanding balance of $6,271 that remained
      undisbursed. From this amount, the $2,750 in IPA audit fees paid directly out of the
      CFC account was removed, leaving a remaining amount outstanding and due to the
      campaign members of $3,521.

      As a result of not properly accounting for all incoming CFC receipts and expenses, the
      PCFO did not disburse $3,521 in receipts to members of the 2009 campaign.

      PCFO Response:

      The PCFO concurs with our finding.




                                             13
   Recommendation 8

   We recommend that the OCFC and LFCC ensure that the PCFO distributes $3,521 in
   campaign funds inadvertently withheld from distributions of the 2009 campaign as
   undesignated funds to the currently active campaign.

   Recommendation 9

   We recommend that the OCFC and LFCC ensure that the PCFO institutes procedures to
   properly account for incoming receipts and campaign costs that are not directly
   reimbursed to it.

2. Pledge Card Errors                                                           Procedural

   The PCFO incorrectly entered one charity code and did not identify one pledge card
   where the donor did not sign the payroll deduction authorization.

   5 CFR 950.105(d)(1) states the PCFO’s specific responsibilities include honoring
   employee designations.

   Additionally, the CFC pledge card, OPM Form 1654, includes a payroll deduction
   authorization to be signed by the donor, authorizing deductions from their paychecks.

   We reviewed a sample of 25 pledge cards to determine whether they were entered into
   the PCFO’s pledge card database correctly. Specifically, we compared the actual
   pledge card to the database to determine if the following items were entered correctly:
   donor name, charity code(s) and amounts donated, total amount donated, the donor’s
   choice to release personally identifiable information, and signed authorizations for
   payroll deductions. Our review identified two pledge cards with errors. Specifically,
   we found:

   •   One pledge card where a charity code was entered incorrectly in the pledge system.

   •   One pledge card where the donor did not sign the payroll deduction authorization.

   The PCFO stated that the errors identified were accidental and/or typographical. We
   understand that accidental and typographical errors are expected from time to time.
   However, pledge cards with unsigned payroll deduction authorizations are troubling for
   two reasons. First, government payroll offices should not authorize the deduction,
   which would result in an overstatement of pledges. Second, because the pledge card
   could be falsely prepared and lead to an unwanted donation if not caught by the
   government payroll office.

   As a result of inadvertently permitting a pledge card with an incorrect charity code, the
   PCFO did not honor all donor designations for the 2009 campaign. Additionally, by




                                          14
   allowing a pledge card submission without a signed payroll deduction authorization, the
   PCFO may have overstated pledges to the 2009 campaign.

   PCFO Response:

   The PCFO concurs with our finding.

   Recommendation 10

   We recommend that the OCFC and LFCC direct the PCFO to ensure that its
   keyworkers are instructed to not only verify the mathematical accuracy of the pledge
   card, but also to ensure that those pledge cards with interval payments include a signed
   payroll deduction authorization.

   Recommendation 11

   We recommend that the OCFC and LFCC direct the PCFO to institute policies and
   procedures to ensure that all information from the pledge cards is entered accurately
   into the pledge card database.

3. LFCC Approval of One-Time Disbursements not Obtained                         Procedural

   The PCFO made one-time disbursements to agencies without requesting approval from
   the LFCC.

   5 CFR 950.901(i)(3) states the PCFO “may make one-time disbursements to
   organizations receiving minimal donations from Federal employees. The LFCC must
   determine and authorize the amount of these one-time disbursements.”

   We reviewed the PCFO’s distribution schedule to determine if it made one-time
   disbursements during the 2009 campaign. Our review determined that it made one-time
   disbursements to all agencies with gross pledges of less than $250 on March 26, 2010.
   We then reviewed the LFCC meeting minutes to determine if the LFCC approved the
   making of one-time disbursements and the ceiling amount for the disbursements. We
   were unable to identify where the LFCC approved either. Discussion with the PCFO
   determined that it did not seek approval from the LFCC because the LFCC was aware
   of the practice of making one-time disbursements. However, when one-time
   disbursements are made, even if both parties are aware of the practice, approval must
   still be sought in accordance with the regulation.

   By not seeking approval for one-time disbursements, the PCFO is not allowing the
   LFCC to exercise its authority and judgment in regards to the campaign as required by
   the regulations.




                                         15
        PCFO Response:

        The PCFO concurs with our finding and states that it “had no understanding that the
        approval from the LFCC was needed in order to make one-time disbursements. The
        PCFO will request approval for one-time disbursements from the LFCC, however, if
        the LFCC does not respond in a timely manner the PCFO will move forward in order to
        meet disbursement deadlines.”

        OIG Comments:

        While the PCFO concurs with this finding, they go on to state that if the LFCC does not
        respond in a timely manner, they will move forward to meet disbursement deadlines.
        According to 5 CFR 950.901(i)(3) “The LFCC must determine and authorize the
        amount of these one-time disbursements.” Therefore, without LFCC approval, one-
        time disbursements may not be made and should be treated as a regular disbursement.

        Recommendation 12

        We recommend that the OCFO ensures that the PCFO and LFCC understand that one-
        time disbursements and the ceiling level for those disbursements must be authorized by
        the LFCC before the payments are actually made.

D.   ELIGIBILITY

     1. Application Review Deficiencies                                                Procedural

        Our review of the Local Agency, Federation Member, and Local Federation
        applications for participation with the CFC identified two areas of deficiency.

        5 CFR 950.104(b)(3) states that it is the responsibility of the LFCC to determine “the
        eligibility of local organizations that apply to participate in the local campaign. This is
        the exclusive responsibility of the LFCC and may not be delegated to the PCFO.”

        We selected 4 local agencies and 2 local federations for review to determine whether
        all items on the local application review sheets were documented as reviewed,
        application review sheets that showed an organization did not meet one of the
        requirements was recommended for denial, and whether the application review sheets
        were signed by an LFCC reviewer. Additionally, we determined if the information
        documented on the review sheets agreed to the related application. Our review
        identified the following two areas of deficiency:

        •   One application where the organization did not mark all certifications as required.
            This application should not have been accepted by the LFCC, because the
            application states that “by checking the box next to the certification, the
            organization named in this application acknowledges and agrees to comply with




                                               16
       that certification.” Therefore, by not checking the certification the federation did
       not agree to all the required certifications.

   •   One application which was not signed by the approving official. Therefore, we
       could not determine if the application was reviewed and approved by the LFCC.

   As a result of accepting incomplete applications, the LFCC runs the risk of accepting an
   agency or federation for participation in the local campaign that does not meet CFC
   standards. Additionally, by not signing the application review sheet, we could not
   determine if the LFCC made the eligibility decisions for all applications accepted.

   PCFO Response:

   The PCFO replied that they are awaiting direction from the LFCC to institute
   procedures to ensure all applications are thoroughly reviewed.

   Recommendation 13

   We recommend that the OCFC direct the LFCC to institute procedures to ensure that all
   applications are thoroughly reviewed and that the LFCC clearly indicates its approval
   or denial of the application.

2. Eligibility Notifications Sent After Due Date                                 Procedural

   The LFCC did not issue local agency and federation eligibility notifications by the date
   required by the regulations.

   5 CFR 950.801(a)(5) states “Local Federal Coordinating Committees must accept
   applications from organizations seeking local eligibility for 30 calendar days as
   determined by the LFCC, and must issue notice of its eligibility decisions within 15
   business days of the closing date for receipt of applications.”

   We reviewed a sample of local agency and federation eligibility notification letters sent
   for the 2009 campaign to determine if the notifications were issued within 15 business
   days of the application closing date. Our review found that the solicitation period for
   local applications closed on March 20, 2009. As per the regulations, the eligibility
   notifications must be issued within 15 business days, making April 13, 2009, the latest
   date to issue the notification eligibility. However, the notifications were not issued
   until April 29, 2009; 16 days after the due date. The LFCC stated that the eligibility
   notifications were not sent timely due to the fact that the OCFC gave it an extension in
   selecting the PCFO for the 2009 campaign which led to delays in other campaign
   functions.

   As a result of not issuing the local eligibility notifications within the 15 business days
   required by the regulations, the LFCC ran the risk of misleading the local agencies and




                                          17
        federations which applied for the 2009 campaign to believe their applications were
        denied or not received by the LFCC.

        PCFO Response:

        The PCFO concurs with our finding.

        Recommendation 14

        We recommend that the OCFC ensure that the LFCC understands its responsibilities
        under the Federal regulations, especially in regards to eligibility notifications to local
        agencies [5 CFR 950.801(a)(5)].

E.   PCFO AS A FEDERATION

     Our review of the PCFO’s activities as a federation showed that it complied with the
     applicable provisions of 5 CFR 950.

F.   FRAUD AND ABUSE

     Our review of the PCFO’s policies and procedures for fraud and abuse indicated that they
     were sufficient to detect and deter potential fraud and abuse activities.

G.   DISPOSITION OF THE CAMPAIGN

     Based on the numerous findings, the nature of the issues identified in this report, the high
     expense percentage of the campaign, and the PCFO’s recognition of its lack of
     understanding of the CFC regulations, it appears that the LFCC and PCFO are not equipped
     to handle the responsibilities of the CFC.

     This report documents numerous instances where both the LFCC and PCFO did not fulfill
     their responsibilities as outlined in 5 CFR 950.

     In summary, we noted the following six issues involving the LFCC:

       1. Did not ensure that the 2009 PCFO applications were sent directly to the LFCC.
       2. Did not advertise for PCFO applications by other public notifications outside of the
          PCFO website.
       3. Did not request the PCFO to provide the 2009 campaign expenses for review and
          approval.
       4. Did not request the PCFO to provide one-time disbursements for approval.
       5. Did not completely review all applications for the 2009 campaign.
       6. Did not issue its eligibility decisions to organizations applying for inclusion in the
          2009 campaign by the date required by the regulations.




                                                18
Furthermore, the LFCC illustrated an apparent lack of concern for the CFC as it:

 1. Only assembled itself for three meetings related to the 2009 campaign: Review and
    approve PCFO’s campaign plan and budget and review organization applications for
    the 2009 campaign (April 27, 2009); Discuss how to improve campaign over last year
    and kick-off reports (October 14, 2009); Review 2009 campaign results
    (April 28, 2010).
 2. The PCFO expressed concern that it has difficulty in convening the LFCC for
    meetings and that the LFCC does not take an active role in its required
    responsibilities.

Additionally, we noted the following six issues related to the PCFO:

 1. Did not submit its actual expenses for the 2009 campaign for approval by the LFCC
    prior to reimbursement.
 2. Incorrectly charged indirect (salary) expenses based on an unsupported allocation
    methodology.
 3. Did not properly record donors’ intended contributions to the CFC and did not ensure
    that required signatures for payroll deduction authorizations were obtained.
 4. Paid campaign expenses directly from CFC funds rather than absorbing the cost and
    then being reimbursed. Additionally, paid for 2008 campaign expenses from 2009
    campaign receipts.
 5. Did not disburse all CFC funds received for the 2009 campaign.
 6. Did not seek approval from the LFCC for either the making of or the ceiling amount
    for one-time disbursements.

We also found that the percentage of campaign expenses related to the 2009 campaign was
30 percent and reported costs for the 2010 campaign were 27 percent, both of which are far
above the average campaign expense for all CFCs in 2009 and 2010 (10 percent).

Lastly, the PCFO itself expressed, and demonstrated, a lack of understanding of the
regulations regarding the administration and operation of the CFC (5 CFR 950).

As a PCFO, the UWWP is responsible for conducting an effective and efficient campaign,
acting as the fiscal agent of the LFCC, and ensuring that donor designations are honored.
The LFCC is responsible for selecting a qualified PCFO, coordinating the local campaign,
and being the central point of information regarding the CFC among Federal employees.
To be successful, the PCFO and LFCC must work together to establish and implement
policies, procedures, and controls necessary to ensure that their responsibilities are carried
out in an efficient and effective manner in accordance with the Federal regulations.

Although the PCFO stated its willingness to institute corrective actions, the numerous
errors specifically attributable to the PCFO, its high CFC expense ratio, and its lack of
understanding of the CFC regulations do not make us confident in its ability to conduct an
effective and efficient campaign.




                                           19
It should be noted that the current LFCC was not in place during the 2008 and 2009
campaigns. However, based on our observations and concerns expressed to us by the
PCFO, there still appears to be a lack of oversight of the campaign and cooperation with
the PCFO by the new LFCC. These concerns do not boost our confidence that the current
LFCC can properly oversee its campaign’s operations.

Recommendation 15

As a result of the numerous findings, the nature of the issues identified in this report, the
high expense percentage of the campaign, and the PCFO’s recognition of its lack of
understanding of the CFC regulations, we recommend that the OCFC seek to merge the
Taconic Valley CFC with another geographically adjacent campaign, administered and
conducted by a new PCFO and LFCC that are more equipped to handle the responsibilities
of the CFC.




                                          20
             IV. MAJOR CONTRIBUTORS TO THIS REPORT
Special Audits Group

              , Auditor-In-Charge



                 , Group Chief, (202) 606-4745

                 Senior Team Leader




                                          21
                                                                                                               APPENDIX A 

United Way
of Westchester and Putnam


                                                                               1011 MAR20 PH 4: ? .
              March 16, 2012




               Offic e of Personnel Management 

               Offi ce of the Inspector Ge neral 


               1900 East Street, NW, Room 6400
               Washington, DC 20415-1100




                Enclose d are our respon ses to the findin gs of the Fall 2009 Ta con ic Va ll ey CFe (#0644) audit.
                Both hardcopy and electronic documents are enclosed.




           Way of west chester il.nd P'Utn&m 

            Itral Park Ave 

~ • .._..: Plains, NY 10606-1500
                                                                                     GIVE. ADVOCATE. VOLUNTEER.
te l 911;-997-6700
filX914"9 49-64)8
 uwwo.org
                                                                                     LIVE UNITED          !'
               TACONIC VALLEY COMBINED FEDERAL CAMPAIGN #0644 

                  RESPONSES TO 2008 AND 2009 AUDIT FINDINGS 




AUDIT GUIDE REVIEW
Agreed Upon Procedures Not in Compliance with the Audit Guide
PCFCO concurs. Audit findings have been shared with IPA. Recommendations will be
addressed in upcoming audit.

BUDGET AND CAMPAIGN EXPENSES
Unallowable Campaign Expenses
PCFO does not concur. PCFO prepared detail schedule of salary and benefits of all staff
involved with the campaign, however did not provide supporting documentation of
actual hours worked. While the PCFO did not maintain a schedule of actual hours
worked, the PCFO did incur salary and benefit expenses related to the campaign and
therefore should be reimbursed. The PCFO will discuss with the proper committee the
reimbursement of $26,000 to the 2009 campaign. A schedule of hours worked for each
employee will be maintained in the coming year. (see attached documents)

Inappropriate Expense Payment
PCFO does not concur. While the PCFO did pay the IPA fee directly from the CFC bank
account, it did not pay from the wrong campaign year's receipts. The PCFO maintains
one bank account for all CFC campaign year receipts. The fee for the 2008 audit was
withheld using campaign software, from the final distribution for 2008. Although the
payment was made in the following year, after the completion of the audit, the funds
from 2008 had been held aside in the bank account and therefore payment was made
from the appropriate receipts. Going forward the IPA fee will be paid by PCFO and
reimbursed at the completion of the campaign.

PCFO Solicitation
PCFO does not concur. It was the understanding of the PCFO that we were compliant
with the regulations by soliciting for PCFO for the 2009 campaign by listing on the
United Way of Westchester and Putnam website. In years past an ad was placed in a
local newspaper but four or five years ago the PCFO was told by OPM that website
placement was sufficient and we have followed that rUling. PCFO will place ads in local
newspapers.

Campaign Expenses Reimbursed without Approval
PCFO concurs. It is the understanding of the PCFO that expenses incurred within the
approved budget may be reimbursed without further approval from the LFCC. Going
forward the PCFO will obtain approval from the LFCC before reimbursement.
CAMPAIGN RECEIPTS AND DISBURSEMENTS
Undistribut ed Campaign Funds




                            DELETED BY OPM -OIG

                     NOT RELEVANT TO FINAL REPORT




PCFO has again reviewed records, recalculated income, and concurs with DIG.

Pledge Card Errors
PCFO concurs. The PCFO m akes every effort t o enter data efficien tl y and co rrectly and
wi th adheren ce t o the guidelines set forth by OPM . During the course of a ca mpaign
mi stakes on pledge cards are found by staff and are han dled appropriately using ou r
pol icies and procedure s which are alr.eady i n place for gUidance. It is the belief of the
PCFQ that the note d errors were not detected by staff and th erefore were not
add ressed at that t ime. The PCFO will contin ue to make every effort to be cognizant of
these types of errors and will t ake corrective action as they occ ur.

LFCC Approval of One-TIme Disbursements
PCFD concurs. PCFD had no underst anding that tl pproval from the l FCC was ne eded in
ord er to m ake one-time disbursements. PCFD will requ est approval for one-time
di sburse ments from the LFCC, however, if the LFCC does riot respond in a timely manne r
th'e PCFO will move forward in order to meet disbursement detl dlines.

ELIGIBILITY
Application Review Deficiencies
Th e PCFO awaits direction from the LF CC to institute procedures to ensure all
appli cations are thoroughly reviewed .

Eligibil ity Notifications Sent After Due Date 

PCFO co ncurs and will check with lFCC re eligibility due date compliance . 





Senior Vic e President for Fi nance/Controll er
     Mr,NAG e~ M.oJ<:~E"!INCiII...FCC   T.oa>HIc VAu..EY CFC
                                                                                                       APPENDIXB

     W£STC!I ~STl;~ OIS T ~(:r



~    UNITED ST.1TES
I!iiI POSTALSERVICE
     March 19, 2012

     Taconic Valley Draft Report ~ Draft Report RespDnses


     Auditor· SpeCIal Audits Group
     U.S. Office of Personnel Management 

     Office of the Inspector General 

     19oo E St. NW Suite 6400 

     Washington DC 20415 

     202-606-2096 




     I have reviewed the Taconic Valley Draft Report ~ Draft RelXlrt Responses with the PCFO team of Un ited Way.

   ~. As I was not the LFCC at the time of the campaign, I can only concur and make recommenda tions for the
     future.

     The PC FO United Way of Westchester will provide the Independent Public Io.ccountant with the informahon to
     complete the ag reed-upon procedures in accordance with the Audit Guide. 


     They will also provide the expenses list related 10 administering the campaign. 


     They used Ihe 2009 receipts vs. 200B and will make the necessary change so this does not occur again. 


     PCFO solidtation will be placed in a public newspaper. 


     They will not reimburse themselves without LFCC approval in writing . 


     They wHi worK to stay within the deadlines to provide timely campaign funds. 


     They will check for pledge card errors. 


     One-time disbu rsements will be made, if necessary after a review and only upon written agreement by the 

     LFCC . 


     The PCFO will work with the committee to ensure timely dispatch of eligibility notification. 


     Again, I can only concur with the changes to came as I was not the LFCC du ring the campaign year. 





            '000 wrSTCHESTEn AVe.lOC
            PO BOJI iSl.3
            Wr-cTS PIJoI ~   ~y   1061 0-•••6
            (il14) 6i7-7343
            FM ('114 ) 697-7012
